<html>
<title> - FEDERAL E-GOVERNMENT INITIATIVES: ARE WE HEADED IN THE RIGHT DIRECTION?</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]




FEDERAL E-GOVERNMENT INITIATIVES: ARE WE HEADED IN THE RIGHT DIRECTION?

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON TECHNOLOGY, INFORMATION
                POLICY, INTERGOVERNMENTAL RELATIONS AND
                               THE CENSUS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 13, 2003

                               __________

                            Serial No. 108-6

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform

                                 ______

86-681              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
JO ANN DAVIS, Virginia               JOHN F. TIERNEY, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia          CHRIS VAN HOLLEN, Maryland
JOHN J. DUNCAN, Jr., Tennessee       LINDA T. SANCHEZ, California
JOHN SULLIVAN, Oklahoma              C.A. ``DUTCH'' RUPPERSBERGER, 
NATHAN DEAL, Georgia                     Maryland
CANDICE S. MILLER, Michigan          ELEANOR HOLMES NORTON, District of 
TIM MURPHY, Pennsylvania                 Columbia
MICHAEL R. TURNER, Ohio              JIM COOPER, Tennessee
JOHN R. CARTER, Texas                CHRIS BELL, Texas
WILLIAM J. JANKLOW, South Dakota                 ------
MARSHA BLACKBURN, Tennessee          BERNARD SANDERS, Vermont 
                                         (Independent)

                       Peter Sirh, Staff Director
                 Melissa Wojciak, Deputy Staff Director
              Randy Kaplan, Senior Counsel/Parliamentarian
                       Teresa Austin, Chief Clerk
              Philip M. Schiliro, Minority Staff Director

   Subcommittee on Technology, Information Policy, Intergovernmental 
                        Relations and the Census

                   ADAM H. PUTNAM, Florida, Chairman
CANDICE S. MILLER, Michigan          WM. LACY CLAY, Missouri
DOUG OSE, California                 DIANE E. WATSON, California
TIM MURPHY, Pennsylvania             STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
                        Bob Dix, Staff Director
                 Scott Klein, Professional Staff Member
                      Ursula Wojciechowski, Clerk
           David McMillen, Minority Professional Staff Member


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 13, 2003...................................     1
Statement of:
    Forman, Mark, Associate Director, Information Technology and 
      Electronic Government, Office of Management and Budget; 
      Joel C. Willemssen, Managing Director, Information 
      Technology, U.S. General Accounting Offfice; Patricia 
      McGinnis, president and CEO, the Council for Excellence in 
      Government; and Leonard M. Pomata, president, Webmethods 
      Government.................................................    12
Letters, statements, etc., submitted for the record by:
    Clay, Hon. Wm. Lacy, a Representative in Congress from the 
      State of Missouri, prepared statement of...................    11
    Forman, Mark, Associate Director, Information Technology and 
      Electronic Government, Office of Management and Budget, 
      prepared statement of......................................    16
    McGinnis, Patricia, president and CEO, the Council for 
      Excellence in Government, prepared statement of............    66
    Pomata, Leonard M., president, Webmethods Government, 
      prepared statement of......................................    74
    Putnam, Hon. Adam H., a Representative in Congress from the 
      State of Florida, prepared statement of....................     5
    Willemssen, Joel C., Managing Director, Information 
      Technology, U.S. General Accounting Offfice, prepared 
      statement of...............................................    33

 
FEDERAL E-GOVERNMENT INITIATIVES: ARE WE HEADED IN THE RIGHT DIRECTION?

                              ----------                              


                        THURSDAY, MARCH 13, 2003

                  House of Representatives,
   Subcommittee on Technology, Information Policy, 
        Intergovernmental Relations and the Census,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2 p.m., in 
room 2154, Rayburn House Office Building, Hon. Adam Putnam 
(chairman of the subcommittee) presiding.
    Present: Representatives Putnam, Clay, and Miller.
    Staff present: Bob Dix, staff director; Scott Klein, Lori 
Martin, and Chip Walker, professional staff members; Ursula 
Wojciechowski, clerk; John Hambel, counsel; David McMillen, 
minority professional staff member; and Jean Gosa, minority 
assistant clerk.
    Mr. Putnam. This hearing of the Subcommittee on Technology, 
Information Policy, Intergovernmental Relations and the Census 
will come to order.
    Good afternoon and welcome to the first hearing of the 
newly reorganized subcommittee. I am honored to have been 
selected by Chairman Davis to serve as chairman of this 
subcommittee. Despite of what this might look like, this is not 
``bring your son to work day.'' They really do let people this 
young in Congress. We look forward to an exciting term with 
this subcommittee. There is a tremendous amount of work to be 
done. Chairman Davis laid the groundwork and blazed a path, 
particularly on some of the issues we will be discussing today. 
He did a tremendous job of beginning the process of bringing 
the Federal Government into the 21st century. He and I will 
continue to work together on this issue in the weeks and months 
to come.
    I also look forward to welcoming my good friend and ranking 
member and fellow sophomore, Mr. Lacy Clay from Missouri. I 
have no doubt that we will have an outstanding working 
relationship throughout the term, and both his staff and our 
staff will continue to work together for the good of the 
subcommittee.
    I will draw your attention later in the hearing to the 
images on the screens, which are a number of the Web sites that 
we will be discussing as part of the E-government initiative. I 
recognize some faces in here this afternoon who were present 
during the morning hearing. The Web sites we will be showing 
you this afternoon are not nearly as interesting as the ones 
the full committee was showing this morning.
    Before I talk specifically about today's hearing on the 
current status of the Federal Government's E-government 
initiative, though, I would like to speak briefly about my 
vision for the subcommittee's work during the 108th Congress. 
We have outlined an aggressive agenda and I am anxious to get 
the ball rolling. I expect to examine closely the 
intergovernmental relations in the areas of emergency response, 
land management, disaster management, as well as Federal grant 
disbursement.
    In the area of the census, the subcommittee will continue 
to examine the American Community Survey and ensure that the 
census is an accurate count based on real numbers. The 
subcommittee will examine data sharing and privacy issues, with 
an eye toward the sharing of information within and between 
governments, looking in particular at programs such as the 
Total Information Awareness Program through the Department of 
Defense.
    We will examine the President's recently submitted 
cybersecurity proposal and the security of our infrastructure 
for our financial markets, public utilities and other critical 
systems. In IT management and E-government, the subcommittee 
will examine agency and department Web site development, cross-
agency coordination, acquisition strategy and performance 
results.
    I hope that these items give a flavor for the direction 
this subcommittee will take in the coming months. We do have an 
aggressive agenda, and we intend to provide vigorous oversight 
of the areas under the subcommittee's jurisdiction.
    Today's hearing focuses on the subject of E-government, 
which is, simply put, the ability of the Federal Government to 
use technology, particularly Web-based Internet applications, 
to enhance access to government information and delivery of 
information services to citizens, business partners, Federal 
employees and other agencies. At the same time, E-government 
initiatives seek to make the Federal Government itself more 
efficient, productive and cost-effective.
    I want to thank today's witnesses for adjusting their 
schedules to accommodate the rescheduling of the original 
hearing date. Today we have an expert panel on E-government 
that will provide us with their professional insight. I would 
like to welcome Mark Forman, the Associate Director of 
Information Technology and Electronic Government from the 
Office of Management and Budget; Joel Willemssen, Managing 
Director of Information Technology with the U.S. General 
Accounting Office; Patricia McGinnis, president and CEO of the 
Council for Excellence in Government; and Leonard Pomata, 
president, webMethods Government.
    The expansion of E-government was one of five key elements 
in the President's management agenda. The goal is to ``champion 
citizen-centered electronic government that will result in a 
major improvement in the Federal Government's value to the 
citizen.''
    The Office of Management and Budget developed a task force 
known as the Quicksilver Process, and began to gather 
information and strategize on E-government initiatives in 
August 2001. In all, the task force identified over 350 
potential E-government projects. These projects were then faced 
into 40 portfolios of related ideas, eliminating duplicates 
along the way. Eventually, with the final approval of the 
President's Management Council, 24 initiatives were selected. 
OMB's criteria for choosing initiatives included the potential 
value to customers, potential improvement in agency efficiency, 
and the likelihood of deployment in 18 to 24 months.
    Government Reform Committee Chairman Tom Davis is to be 
commended for the E-Government Act of 2002, which sought to 
improve IT investment and required OMB to provide an annual 
report to Congress on the status of E-government.
    Rather than simply identify and report IT investment at 
each agency, the E-Government Act forces a cultural change in 
IT procurement from consolidating and integrating IT 
investments to encouraging performance-based, citizen-centered, 
cross-agency planning. Under the act, the Office of Management 
and Budget has been designated as the lead organization for all 
Federal Government IT purchasing and planning, and all Federal 
agencies must comply with OMB guidance to ensure implementation 
of E-government.
    Federal Government expenditures on IT will near $60 billion 
in fiscal year 2004, making the Federal Government the largest 
purchaser of IT in the world. Simply because the Federal 
Government spends the most does not mean that it spends that 
money wisely, gets the most for its investment, or provides 
technologically advanced and easy to use services to the 
public. One of our most important missions on this subcommittee 
is to ensure to the greatest extent possible a technologically 
advanced government providing fast, efficient and needed 
services to the American public.
    I want to thank each witness for taking the time to 
participate in this important hearing, and thank you for your 
valuable contribution. Today's hearing can be viewed live via 
Web cast by going to http://reform.house.gov and then clicking 
on the link under ``Live Committee Broadcast.''
    Today, I am also pleased to announce that this subcommittee 
will be the first subcommittee in the House to use video-to-
text technology. In a few days, the public will be able to go 
to the committee's home page and find a specific piece of video 
for this hearing by doing a word, phrase or name search. They 
will then be given a list of choices to choose from, and can 
view a video clip of 45 seconds in length containing the 
information they searched for. This is a tremendous advance in 
the archiving and retrieval of historical records in the House 
of Representatives. The Library of Congress, in conjunction 
with FedNet, has been taking the lead in bringing this 
technology to the House. Chairman Davis is to be commended for 
bringing emerging technologies to this committee.
    As we await the arrival of Mr. Clay and make additional 
introductions, I just want to take a couple of moments and talk 
about the opportunities that we have from a technology 
perspective to redefine the way that the Federal Government 
interacts with its citizens and its taxpayers. As the youngest 
Member of Congress, there is a generation of Americans out 
there who have grown up accustomed to certain technologies and 
a certain way of doing business based on the newest and latest 
technologies. It has redefined their relationship in 
recreation. It has redefined their relationships in commerce 
and business, and it can redefine their relationship with the 
government.
    As this new generation of voters comes online and becomes 
productive, tax-paying members of society and leaders in 
business and leaders in the communities, they expect that the 
same conveniences and technologies that have been commonplace 
to them throughout their life will be available from their 
government as well. Unfortunately, the government has been 
lagging behind.
    So as our taxpayers and as our consumers, our customers, 
our citizens continue to have higher levels of expectations, 
the gap between the expectations and what the government is 
able to provide is a gap that we need to work very hard to 
close and make sure that those expectations are met and that we 
redefine that relationship.
    As we await the arrival of Mr. Clay, I want to introduce 
the vice chair of the subcommittee, Candice Miller. I know that 
she is ready and eager to pull up her sleeves and get down to 
business. I would like to yield now to her for a few opening 
remarks.
    [The prepared statement of Hon. Adam H. Putnam follows:]

    [GRAPHIC] [TIFF OMITTED] T6681.001
    
    [GRAPHIC] [TIFF OMITTED] T6681.002
    
    [GRAPHIC] [TIFF OMITTED] T6681.003
    
    Ms. Miller. Thank you, Mr. Chairman. I am certainly pleased 
to serve here on this subcommittee with you and to be your vice 
chairperson. I was interested to hear you talk about how we are 
going to be on the leading edge as a committee to have all this 
availability on the Internet. I think that is an appropriate 
role for this subcommittee. I think it is wonderful that we are 
going to have the opportunity to offer that to the taxpayers 
across the entire Nation.
    I am so excited about hearing from all of you today. I 
certainly appreciate you all taking the time to come here 
today. I think E-commerce and E-government is such an 
interesting area, certainly with the exploding technology and 
what can happen. It is, I think, very important for us to try 
to benchmark where we are as a Nation with E-government and 
where we have been and where we are going. The Internet in many 
ways is a relatively new phenomena.
    I hope to be able to bring my own experiences, perhaps my 
own perspective, to this committee as well. I was a former 
Secretary of State in my former life, for the last 8 years in 
Michigan. I was concerned with all the motor vehicle 
administrative matters. We actually had a very antiquated 
department--180 branch offices, 20 million transactions 
annually, and there was neither a fax machine nor a copy 
machine in any of our branch offices, if you can imagine. We 
became the first State agency actually in our State to do E-
government, E-commerce. We architected all the data base where 
we were actually able to take money from people for credit 
cards and those kinds of things so they could do vehicle 
registrations, snowmobile, boat registration, what have you, 
via the Internet or fax or touchtone phone--all of these kinds 
of things. We also architected a kiosk program that we put out 
in shopping malls and that kind of thing.
    We used that as the foundation for a lot of the other State 
agencies--recreational kinds of things and all of these--to be 
able to be a one-stop-shop for E-government in our State. As 
well--something certainly worth mentioning as we are sitting 
here talking about politics I suppose as the Chief Elections 
Officer I was also responsible for something that we called our 
qualified voter file in Michigan. We had a very decentralized 
system. In other words, normally in every State it is the local 
county clerk that maintains the voter registration rolls. In 
Michigan, it was every local city, municipal clerk. We have 
about 1,800 various voter registration files floating around 
there in Michigan. We built a statewide computerized voter 
registration list, which actually was noted in the Ford-Carter 
Presidential Commission report on election reform as an 
outstanding national model on how you can have a Statewide 
computerized voter registration file when you are doing 
election reform and these kinds of things.
    So I am very, very excited to be able to work with all of 
you as we go forward here. There are so many things, as the 
chairman has said, not only the new generation, but certainly 
those of us that are starting to feel more comfortable about 
accessing information electronically and using the Internet for 
so many kinds of services, look to government to be more 
progressive perhaps than we have been in the past. I think it 
is for all of us to ensure that all of these services and all 
of the different governmental agencies is accessible and easy 
to use and in that kind of a format.
    Additionally, I know not at this hearing, but we will be 
discussing privacy concerns as well. And of course, all of us 
in government that have responsibilities for maintaining data 
bases and what have you, have to be concerned about 
intervention, sometimes over the line by government into 
personal privacy as well. Who is going to have the information, 
how is it going to be utilized, who will have the ability to 
access it--those kinds of questions as well.
    So I am very excited to hear your testimony and again 
appreciate all of you coming today. Thank you.
    Mr. Putnam. I thank the gentlelady. I am notified that 
Congressman Clay will be right with us. He is wrapping up a 
vote in another committee.
    Before we get to the witnesses, I do want to introduce the 
staff. We were here until 2 a.m. doing budget work, and of 
course some of the unsung heroes in this process are staff. I 
want to introduce to you and to the audience, as you all have 
issues, the folks who make these things happen. I will let Mr. 
Clay introduce the minority staff. The majority staff, Bob Dix 
is our staff director. He is a former staff member for the DC 
Subcommittee; former locally elected official, and former 
president and CEO of a technology company himself. He brings a 
broad background of both public and private sector service.
    Scott Klein is our professional staff member, IT Government 
Relations, for both TRW and BDM are in his background, as well 
as some work for Senator Warner. He is a Virginia Tech guy, 
handling our tech issues. Lori Martin, another professional 
staffer, senior research analyst, media assistant for Podesta 
Matoon. She is a lawyer from Regent University. She handles our 
privacy and information policy issues. Chip Walker, former 
deputy staff director for the Subcommittee on Civil Service, 
Census and Agency Organization; staff director of the 
Subcommittee on the Census. He got his education at Long Island 
University and handles all of our census issues. He has 
forgotten more about the census than most of us will ever know, 
as well as intergovernmental relations and cybersecurity.
    Ursula Wojciechowski--she is the subcommittee clerk. She 
formerly worked for Subcommittee Chairman Horn on the 
Subcommittee on Government Efficiency. For those of you who 
knew how many hearings he had, she is probably the most 
efficient clerk in the Congress. And John Hambel, on my left, 
another counsel who formerly was counsel on the Energy and 
Commerce Committee Subcommittee on Oversight and 
Investigations, and former counsel to Representative Norm Lent.
    With that, at the risk of dumping everything in his lap 
just as soon as he sits down, I will recognize the ranking 
member, the distinguished gentleman from Missouri, Mr. Clay.
    Mr. Clay. Thank you very much, Mr. Chairman. I really look 
forward to this assignment and look forward to working with you 
and the other members on this committee.
    I guess I will start with introducing our staff on the 
minority staff. That would be, first, David McMillen, the 
professional staff member; also Jean Gosa, assistant clerk of 
the full committee; and then Robert Odom from my office who 
assists us here.
    I am looking forward to working with you, and hopefully we 
will be able to advance the needs and the causes of this 
committee forward in a judicious and bipartisan manner.
    Thank you.
    [The prepared statement of Hon. Wm. Lacy Clay follows:]

    [GRAPHIC] [TIFF OMITTED] T6681.004
    
    Mr. Putnam. I thank the gentleman.
    We will now begin with the witnesses. Each has kindly 
prepared written testimony which is available for all. As is 
the routine, we ask that you summarize these in a 5-minute 
opening statement to give us plenty of time for questions. 
Before we do, as is the practice of this subcommittee, I would 
ask our witnesses to stand and raise their right hands and be 
sworn in.
    [Witnesses sworn.]
    Mr. Putnam. Note for the record that the witnesses have 
responded in the affirmative. I will introduce our first 
witness, Mark Forman, Associate Director for Information 
Technology and E-Government for OMB, a position he has held 
since June 2001. He is the CIO of the Federal Government and 
the leading Federal E-government executive responsible for 
fulfilling the President's E-government initiatives. He has a 
tremendous background in the public and private sector, and 
will be invaluable to this subcommittee as we proceed with our 
work.
    With that, Mr. Forman, you are recognized for 5 minutes.

  STATEMENTS OF MARK FORMAN, ASSOCIATE DIRECTOR, INFORMATION 
TECHNOLOGY AND ELECTRONIC GOVERNMENT, OFFICE OF MANAGEMENT AND 
  BUDGET; JOEL C. WILLEMSSEN, MANAGING DIRECTOR, INFORMATION 
TECHNOLOGY, U.S. GENERAL ACCOUNTING OFFFICE; PATRICIA MCGINNIS, 
 PRESIDENT AND CEO, THE COUNCIL FOR EXCELLENCE IN GOVERNMENT; 
    AND LEONARD M. POMATA, PRESIDENT, WEBMETHODS GOVERNMENT

    Mr. Forman. Thank you, Mr. Chairman and members of the 
subcommittee. Thank you for the opportunity and for the 
gracious rescheduling of the committee.
    The answer to the question posed in the title of this 
hearing, yes, I think we are headed in the right direction. We 
welcome your leadership and the continued opportunity to work 
with you and the committee to strengthen IT and E-government.
    We find that E-government is increasingly becoming the 
principal means by which citizens engage with their government. 
The September 2002 report from the Pew Foundation found that 71 
million Americans have used government Web sites, up from 40 
million in March 2000. We know the Council for Excellence has 
been instrumental in documenting key elements of that.
    The President sees E-government as part of a larger vision 
for reforming government. The President's E-government 
initiative through billions of dollars in Federal spending, 
reduce government's burden on citizens and businesses, and 
improve operations to accelerate government's response times, 
often moving from weeks or months down to minutes or hours. 
This administration continues to integrate and align E-
government with the President's other management initiatives, 
budget and performance integration, strategic management of 
human capital, competitive sourcing and improved financial 
performance.
    The potential for substantial improvement is greater if all 
of these initiatives are pursued concurrently. For the E-
government initiative, the strategic question that we face is 
how to maximize the results from the more than $50 billion we 
invest in IT. Through E-government, conducting business with 
the government becomes easier, more private and more secure. 
Achieving our vision of three clicks to service requires 
agencies to integrate and to simplify their operations, while 
addressing longstanding IT management problems that include 
redundant buying and IT security.
    The administration's E-government strategy is a two-pronged 
approach to IT reform: First, modernization within agencies 
around the tenets of E-business, and then consolidating and 
integrating IT investments across agencies around the needs of 
citizens. The Federal Government has made significant progress 
toward becoming a transformed and more productive E-enterprise. 
The Presidential E-government initiatives consolidate dozens of 
redundant agency-centered efforts. Twenty-four projects were 
selected on the basis of the value that they bring the 
citizens, while generating cost savings and improving the 
effectiveness of government.
    These initiatives reflect the administration's focus on 
four citizen-centered groups. For individuals, we are creating 
single-points of easy access to high quality government 
services. For businesses, we are minimizing redundant data 
collection and using commercial electronic transaction 
protocols, while making it easy to find, understand and comply 
with laws and regulations. For other levels of government, the 
Federal Government is making it easier for States and 
localities to meet reporting requirements and collaborate, 
while promoting performance.
    For internal efficiency and effectiveness, the Federal 
Government is modernizing internal processes to reduce costs, 
while facilitating the ability of government employees to do 
their job. Significant progress has already been made on the 
projects in the past year, including the launch of numerous 
government portals. A recent achievements and next steps are 
listed in the written testimony, and the E-Government At A 
Glance document, which is available at the Egov.gov Web Site. 
We also provided the committee with copies of Table 22-2 from 
chapter 22 of the analytical prospectus of the President's 2004 
budget. That summarizes the 24 E-government initiatives, the 
recent accomplishments, the performance metrics, and the coming 
milestones.
    Agency IT investments continue to make the Federal 
Government the largest buyer, as you noted. Table 22-1 from 
chapter 22 of that prospective document discussed the agency 
progress on E-government. Improvements have been attained 
through IT management within the agency. Additionally, there 
are specific agency initiatives that are highlighted in my 
written statement. Three agencies improved their status score 
on E-government from red to yellow since the baseline 
evaluations in September 2001. I would recognize the Department 
of Education, Energy and Veterans Affairs for their progress. 
The National Science Foundation upgraded their status from 
yellow to green, and continues to serve as a model for how 
small agencies can successfully implement E-government. 
Seventeen agencies also received green for their progress in 
the first quarter of 2003, as listed in my written statement.
    Specific actions need to be taken to address the chronic 
problems. I listed many on the six chronic problems in my 
written statement. Agencies must continue to address these 
longstanding challenges in order to deliver measurable results.
    I would like to highlight a few that we are specifically 
focused on over the next 12 months. First, agencies are 
required to take a comprehensive approach to reform. They have 
to look at people, processes and technology, and how that mixes 
together to deliver significantly better results. As a result 
of lack of doing so or lack of including adequate security, we 
put 771 projects, $21 billion worth of requested funding on 
what we call a list of projects that are at risk. These 
projects will be monitored throughout fiscal year 2003 and 
agencies have demonstrated good progress over the last month. 
OMB will allow investments on this list to move forward only 
after agencies present successful business cases.
    Second, the administration continues to work to ensure that 
IT investments reflect consolidation around citizens groups in 
long lines of business; that we reduce duplicative collection 
of data from citizens, businesses and State and local 
government; that we leverage enterprise licenses for the 
Federal Government where appropriate; and that we reduce 
surplus infrastructure capacity.
    Third, a comparison of agency investment requests for 2003 
versus what is reported as actual cost provides specific 
demonstration that too many IT projects have cost and schedule 
overruns. Not surprising, these same projects fail to 
successfully make the business case and are on the at-risk 
list. Over the past year, OMB required that all major 
acquisitions implement an earned value management standard 
based on a commercial standard. OMB also directed agencies to 
have a program management plan and qualified project manager 
for projects to be approved for spending, beginning with 
October of fiscal year 2004 and thereafter.
    Fourth, to ensure that IT security weaknesses are 
appropriately addressed, OMB requires agencies to develop, 
implement and maintain plans of actions and milestones for 
every program in its system where an IT security weakness is 
found.
    The need for Federal Government enterprise architecture was 
one of the most significant findings from the E-government 
strategy effort. I discussed the five interrelated reference 
models in my written statement. In constructing the 2004 
President's IT budget, OMB employed a cross-agency approach. 
This committee has strongly supported an effective IT 
management practice, and OMB pledges the administration's full 
support to employ these practices throughout the government.
    There have been many concerns expressed about the funding 
required to meet the goals and challenges of E-government. The 
administration has sufficient funding for cross-agency E-
government projects if we simply stop funding what is redundant 
or not working. In some cases, agency cultures and government 
organization structures make it difficult to finance and manage 
cross-agency projects. To help overcome this barrier, the 
President included in his fiscal year 2004 budget a proposed 
$45 million for the E-government fund. This seed money for new 
and innovative projects and consolidating redundant information 
technology investments is important. Indeed, as we are 
successful in using the E-government fund to integrate 
redundant systems, we can free up those same agency resources 
to be spent on more productive ways to achieve the missions 
that appropriated dollars are intended to serve. Thus, it 
remains a key priority for the success of the E-government 
agenda.
    The administration has made major advances in E-government 
over the last 2 years. The passage of the E-Government Act has 
strengthened the mandate. Mr. Chairman, we look forward to 
working with you and your colleagues to achieve these important 
goals.
    [The prepared statement of Mr. Forman follows:]

    [GRAPHIC] [TIFF OMITTED] T6681.005
    
    [GRAPHIC] [TIFF OMITTED] T6681.006
    
    [GRAPHIC] [TIFF OMITTED] T6681.007
    
    [GRAPHIC] [TIFF OMITTED] T6681.008
    
    [GRAPHIC] [TIFF OMITTED] T6681.009
    
    [GRAPHIC] [TIFF OMITTED] T6681.010
    
    [GRAPHIC] [TIFF OMITTED] T6681.011
    
    [GRAPHIC] [TIFF OMITTED] T6681.012
    
    [GRAPHIC] [TIFF OMITTED] T6681.013
    
    [GRAPHIC] [TIFF OMITTED] T6681.014
    
    [GRAPHIC] [TIFF OMITTED] T6681.015
    
    [GRAPHIC] [TIFF OMITTED] T6681.016
    
    [GRAPHIC] [TIFF OMITTED] T6681.017
    
    [GRAPHIC] [TIFF OMITTED] T6681.018
    
    [GRAPHIC] [TIFF OMITTED] T6681.019
    
    Mr. Putnam. Thank you very much, Mr. Forman.
    Our next witness is Joel Willemssen, Managing Director of 
Information Technology for the U.S. General Accounting Office. 
In that position, Mr. Willemssen has overall responsibility for 
GAO evaluations of IT across the Federal Government. He has 
been with GAO for 24 years and has appeared before 
congressional committees more than 80 times. You do not look 
any worse for the wear, Mr. Willemssen.
    Mr. Willemssen. Thank you, Mr. Chairman.
    Mr. Putnam. You are recognized for 5 minutes. Thank you for 
being here.
    Mr. Willemssen. Thank you, Mr. Chairman, for inviting us to 
testify today. Ranking Member Clay, Vice Chair Miller, as 
requested, I will briefly summarize our statement.
    As you mentioned earlier, Mr. Chairman, under the project 
known as Quicksilver, OMB and the President's management 
council have selected a strategic set of initiatives to follow 
through on the President's management agenda. According to OMB, 
the initiatives were selected on the basis of value to 
citizens, potential improvement in agency efficiency, and the 
likelihood of deployment within 18 to 24 months. The 
initiatives focus on a wide variety of services aimed at 
simplifying and unifying agency work processes, providing one-
stop services to citizens, and enabling information to be 
collected once and re-used.
    While several of the projects have achieved tangible 
results, not all of them are making the same degree of 
progress. For example, some have had major management changes 
that have contributed to the delays in project milestones. In 
addition, updated information that we have received from 
project managers reveal that about half the initiatives had 
changes in estimated costs exceeding 30 percent. Fluctuations 
such as these indicate a need for a strong oversight to ensure 
that the larger goal of realizing the full potential of E-
government is not jeopardized.
    When we previously reviewed project planning documentation 
for each of the initiatives, we found indications that 
important aspects had not been fully addressed. For example, in 
reviewing the brief business cases prepared to justify the 
selections, we determined that while all initiatives included a 
discussion of expected benefits, and all but one included a 
discussion of the initiative's objectives, only nine of the 
business cases discussed how customer needs were to be 
identified and addressed, and only eight addressed 
collaboration among agencies.
    In addition, in reviewing the initiatives' work plans and 
funding plans, we determined that four of five best practice 
elements we identified were addressed in a majority of the 
project plans. However, only nine identified a strategy for 
obtaining needed funds. Further, 10 did not identify a final 
completion date, and 6 were not expected to be completed within 
the 18 to 24 month timeframe established by OMB.
    Given these challenges, we have previously recommended to 
OMB that it take steps as overseer of the E-government 
initiatives to reduce the risk that the projects would not meet 
their objectives. Specifically, we recommended that OMB ensure 
that the managing partners for the individual initiatives had 
performed the following steps: one, to focus on customers by 
ensuring that input was solicited from them; two, to work with 
partner agencies to develop and document effective 
collaboration strategies; and three, to provide OMB with 
adequate information to monitor cost, schedule and performance.
    In following up on our recommendations, we have requested 
from OMB updated business cases that were submitted as part of 
the fiscal year 2004 budget process. These updated business 
cases should provide more recent cost and schedule information, 
and indications of whether key topics such as collaboration and 
customer focus are now being addressed for all initiatives. OMB 
officials told us earlier this week that the business cases 
still, however, need to be reviewed before they can be 
released.
    Mr. Chairman, that concludes a summary of my statement, and 
after the panel is finished, I would be pleased to address any 
questions that you or the ranking member may have.
    Thank you.
    [The prepared statement of Mr. Willemssen follows:]

    [GRAPHIC] [TIFF OMITTED] T6681.020
    
    [GRAPHIC] [TIFF OMITTED] T6681.021
    
    [GRAPHIC] [TIFF OMITTED] T6681.022
    
    [GRAPHIC] [TIFF OMITTED] T6681.023
    
    [GRAPHIC] [TIFF OMITTED] T6681.024
    
    [GRAPHIC] [TIFF OMITTED] T6681.025
    
    [GRAPHIC] [TIFF OMITTED] T6681.026
    
    [GRAPHIC] [TIFF OMITTED] T6681.027
    
    [GRAPHIC] [TIFF OMITTED] T6681.028
    
    [GRAPHIC] [TIFF OMITTED] T6681.029
    
    [GRAPHIC] [TIFF OMITTED] T6681.030
    
    [GRAPHIC] [TIFF OMITTED] T6681.031
    
    [GRAPHIC] [TIFF OMITTED] T6681.032
    
    [GRAPHIC] [TIFF OMITTED] T6681.033
    
    [GRAPHIC] [TIFF OMITTED] T6681.034
    
    [GRAPHIC] [TIFF OMITTED] T6681.035
    
    [GRAPHIC] [TIFF OMITTED] T6681.036
    
    [GRAPHIC] [TIFF OMITTED] T6681.037
    
    [GRAPHIC] [TIFF OMITTED] T6681.038
    
    [GRAPHIC] [TIFF OMITTED] T6681.039
    
    [GRAPHIC] [TIFF OMITTED] T6681.040
    
    [GRAPHIC] [TIFF OMITTED] T6681.041
    
    [GRAPHIC] [TIFF OMITTED] T6681.042
    
    [GRAPHIC] [TIFF OMITTED] T6681.043
    
    [GRAPHIC] [TIFF OMITTED] T6681.044
    
    [GRAPHIC] [TIFF OMITTED] T6681.045
    
    [GRAPHIC] [TIFF OMITTED] T6681.046
    
    [GRAPHIC] [TIFF OMITTED] T6681.047
    
    [GRAPHIC] [TIFF OMITTED] T6681.048
    
    [GRAPHIC] [TIFF OMITTED] T6681.049
    
    Mr. Putnam. Thank you, sir. I appreciate your being here.
    Our next witness is Patricia McGinnis, president and CEO 
for the Council of Excellence in Government, a nonprofit 
organization working to improve the performance of government 
and engage citizens. Promoting E-government is one of its top 
goals. Ms. McGinnis testified last year before Congressman 
Davis' Technology and Procurement Policy Subcommittee, back 
when the name was still manageable, providing valuable insight 
on this issue just as we were marking up the E-government 
legislation. Her candid views on the progress and challenges 
since then I think will be very beneficial to the subcommittee.
    We welcome you. Thank you.
    Ms. McGinnis. Thank you very much, Mr. Chairman and Mr. 
Clay, and Ms. Miller.
    I want to commend you and the entire subcommittee for your 
leadership in focusing on this now and continuously to turn the 
potential and promise of E-government into reality. The role of 
Congress and your oversight function will be absolutely 
critical in this area, not only to hold OMB and the Federal 
agencies accountable for results, but also to assess and assure 
the necessary and flexible investment of funds to make this 
happen. It is not just the amount, but the flexibility, and we 
will come back to that.
    You gave a nice introduction of the Council, so I will not 
talk so much about that, but the fact that we chose E-
government as a very high priority a few years ago really 
reflects our belief that this provides a way to leap ahead to 
better services and to connect citizens to government in a 
powerful way. So it is a two-way communication, in addition to 
offering information services and transactions.
    The E-Government Act, as far as we are concerned, was 
terrific--a great framework to move this forward. Certainly not 
a final step, but a very good first step, reflecting the 
principles and recommendations that we have made about the 
importance of accessibility, ease of use, collaboration, 
innovation, privacy and security, and focusing on leadership in 
this strategic investment capability, as well as the work 
force, standards for privacy security and interoperability, and 
also access to the Internet--because until we have full access, 
we really cannot realize the potential of E-government.
    There is no question that the public is both interested and 
engaged in this. This is a way of making government truly of, 
by and for the people. Public use of government online has 
risen steadily over the past few years, as Mark said, and we 
well know. We have done a lot of work over the last few years 
measuring public opinion and attitudes, and trying to 
understand that, trying to bring that to the attention of 
decisionmakers. We have a poll underway right now, one of the 
series that we have done with Bob Teeter and Peter Hart, which 
we will be releasing in the middle of April. I look forward to 
giving you those results, because we are focusing on some very 
timely and interesting issues related to the satisfaction that 
people have with the quality of existing online information and 
services; also their concerns about privacy and security, 
particularly in the context of homeland security; and maybe 
most important, their sense of future possibilities to organize 
online interactions with government in a very integrated and 
user-friendly way that goes beyond what is available now.
    There will also be an international dimension to this 
year's poll. We are doing public surveys in five other 
countries, so we will be able to show some interesting 
comparisons there; and also surveying Federal, State and local 
leaders to get their perspective. So I think this will be very 
helpful to you and we look forward to sharing it.
    The most recent poll that we have made public, I included 
some points in the testimony. I know you have had a chance to 
look at it, but basically it says that people are going to 
government Web sites in much larger numbers. They like what 
they are seeing. They expect E-government to have a positive 
effect on the way government operates. They think a high 
priority should be homeland security, health and safety. They 
are very positive about investing tax dollars in making 
government services and information available online. They are 
concerned about privacy and security, we know, and those 
concerns have to be taken seriously.
    So to paraphrase the slogan that we hear from the popular 
music video channel--I hear my teenagers listening to it--
Americans want their E-gov. So that is clear.
    The progress that we have seen in these initiatives, the 24 
initiatives that Mark has talked about, I think has been 
remarkable, despite the issues that have been raised by GAO--
and they are all absolutely correct. There is no difference of 
opinion there. I know I, for one, when these 24 initiatives 
were announced, felt that maybe they were taking on too much. 
What I see now is a lot of progress. It is not even. Everything 
is not where it should be, but these clusters of initiatives 
around individuals, around businesses and around State and 
local government, government to government, make a lot of sense 
to me. Then the infrastructure, looking at the enterprise 
architecture is absolutely necessary. So I think we are in a 
good spot.
    Not to say that we should be complacent. There are issues 
to talk about in terms of funding and collaboration and all the 
issues that Mr. Willemssen raised. But I just want to 
congratulate Mark and the members of those Quicksilver task 
forces for being very innovative, very flexible, and bringing 
this a long way in a short time.
    The examples--Mark has included some in his testimony--you 
can pick out the stars here. Having those successes hopefully 
will offer a pattern for the others to follow. FirstGov, for 
example, which has improved dramatically since it was first 
launched, is now a finalist in the prestigious Innovations in 
American Government award competition, which we are pleased to 
partner with Harvard University on. Not that it cannot be a lot 
better, and we all have ideas about that, but it is really 
state-of-the-art at this point.
    The next steps for the 24 E-gov initiatives still hold the 
key to actual meaningful results. We are not there yet, but the 
public, businesses and government are clearly benefiting from 
the early results in the stage we are now. The challenge is to 
drive the implementation of E-government in a very strategic 
way down into the agencies where leaders in agencies would 
embrace and demand these tools for their own decisionmaking and 
day to day management regimen. So it is not just the members of 
the task forces and the CIOs and the people who have really 
signed onto this, but it becomes a matter of course in the way 
agencies are led and run.
    The focus has to be on the citizens and businesses who are 
both the customers and owners of government. I think it is not 
just customer, it is also owner, and that is really important. 
Active engagement between government and citizens is essential 
to getting this right down the road. I would urge this 
subcommittee to consider holding some of your oversight 
hearings as public forums around the country, and to use the 
technology so people can engage in this discussion not only in 
person, but online. We have also recommended such public forums 
to OMB and to GSA, so perhaps some joint legislative-executive 
branch forums would make sense. We would be delighted to help 
with that.
    This phase of E-government has to be focused on 
breakthrough performance and tangible results. The measures of 
performance should include measurable, tangible items like 
improvements in quality and customer satisfaction; improvements 
in cycle time; cost reductions; and also the reduction on the 
burden of customers of E-government, which can be quantified. 
In looking at this and working with the public and private 
sector, we see four critical success factors for E-government. 
Sometimes we call them ``E-tensions,'' and they actually are 
both, and that is why they are so important.
    The first is that greater attention needs to be paid to the 
governance issues. This is certainly not just about technology. 
We need more collaborative models for identifying, funding and 
managing cross-agency and intergovernmental initiatives. This 
is not a natural act, collaboration. Even though we have seen 
it in these Quicksilver task forces, it needs to be much more 
widespread, and those models need to be shared.
    Mr. Putnam. I hate to interrupt. If you could just run 
through the next three and tell us what they are, then we will 
get back into that with questions.
    Ms. McGinnis. The second one is easy because it is very 
related, and that is the culture of agencies. The third is the 
human capital challenges. We need the right work force. Maybe 
it is a smaller work force, but it certainly has to be a work 
force with the right tools to do this work. Finally, and maybe 
most important, is the need for flexible investment in E-
government and the infrastructure required. In that regard, I 
would like to suggest that the appropriations process, in 
addition to the way the funding is managed within the executive 
branch, does present some impediments here. It would be 
wonderful if you, who understand E-government so well, could 
hold some joint hearings or have joint sessions with the 
Appropriations Committee so that the risk and benefits could be 
factored into that process as well.
    Thank you.
    [The prepared statement of Ms. McGinnis follows:]

    [GRAPHIC] [TIFF OMITTED] T6681.050
    
    [GRAPHIC] [TIFF OMITTED] T6681.051
    
    [GRAPHIC] [TIFF OMITTED] T6681.052
    
    [GRAPHIC] [TIFF OMITTED] T6681.053
    
    [GRAPHIC] [TIFF OMITTED] T6681.054
    
    [GRAPHIC] [TIFF OMITTED] T6681.055
    
    Mr. Putnam. Thank you very much, Ms. McGinnis.
    Mr. Pomata, we appreciate you being here as well. Leonard 
Pomata is the president of webMethods Government. He has been a 
leader in the IT community for over 35 years, and has a 
tremendous amount of industry experience, particularly in the 
area of providing complex computer systems and business 
solutions to our Federal Government, and has a wealth of 
experience and knowledge in this area.
    We welcome you and look forward to your comments. You are 
recognized for 5 minutes, Mr. Pomata.
    Mr. Pomata. Thank you, Mr. Chairman and members of the 
subcommittee. It is an honor to be here before this committee, 
which through the work of Chairman Davis and others, and my 
fellow panelist Mark Forman have really brought the government 
into the 21st century. Everybody here is due a debt of 
gratitude from the citizens.
    Let me state some principles, and I will summarize, that I 
feel are important and fundamental to IT programs that are used 
in the private sector and really apply to E-government 
initiatives.
    First of all, the driving force--and this has been 
mentioned by the other panelists--is the customer. The customer 
needs to drive the process and determine what is and when an IT 
project is necessary and viable. That needs to be kept in mind.
    For technology to be successful, well-defined outputs to 
the customer, whether business or government, is an important 
first step. All that matters at the end of the day is, has the 
customer received the results in a timely manner and has the 
project fulfilled the entire needs of the customer. To 
translate that into the public sector, agencies should ask if 
their customers, whether taxpayers directly or indirectly, are 
gaining benefit from the project. That is at the end of the day 
what needs to be measured.
    In business, customers measure performance of IT projects 
by return on investment or savings. The savings in government 
need to be measured in either reduced cost of service or 
increased service to their customer, whether that is internal 
to the government and government to government, or to the 
taxpayer. So we must ask how much value are we adding to their 
work or to their personal lives.
    We need to identify and commit in industry investments to 
ensure that throughout the intended duration of a project that 
an IT project will be successful. All too often, shortfalls in 
this area lead to diminished capacity of the organization to 
deliver, protracted schedules, and reduced delivery of 
services. Unfunded mandates lead to undesired results. It is a 
fundamental principle in business to stop underfunded projects 
before the investment is wasted.
    So the question to government is, we know what authority 
and direction agencies have been given, but what have they been 
given in terms of funding? Fundamental to the success of any 
project is a well thought-out plan, and I think we have talked 
about it before here, with rigorous milestones and incremental 
measurable outputs. Modern IT development techniques allow for 
continuous evolution of capabilities, rather than a single 
revolutionary delivery. Project teams need to be fully trained 
and the approaches need to embed measurement points in the 
process to determine process. Management teams need to be 
responsible and accountable to review the team's progress and 
have similar measurement methodologies. Among the widely used 
industry practices is the CMM, capability maturity model. This 
is one way for an organization to measure the development and 
progress of IT projects.
    We also believe strongly in a team. That does not mean just 
to share the glory. For instance, in our company we have one 
mission, one overall objective, and it is not just an 
conglomeration of independent operations. Therefore, the 
question for agencies is also, do employees and officials see 
their incentives as just advancing their own objectives of one 
fiefdom, or are they committed to the success of the overall 
mission?
    The function of teams, obviously, is to have individuals 
and units coordinate, cooperate and communicate as a team 
across departments and organizations. A team must have a single 
objective and a single leader. Otherwise, there will be 
redundancy, confusion, roadblocks and frustration and poor 
results. It would be a shame if good intentions are defeated by 
avoidable lapses in basic communication and organizational 
leadership.
    Today's citizens, as we talked about, are not satisfied 
with faxes and telephones and being on hold. They really want 
to go to one screen and have results come up in real time and 
not have to be put on hold on the computer as well, and to come 
back a week from now to find their results. Therefore, agencies 
need to ask, when a taxpayer comes to a portal, for instance, 
can they get instant comprehensive information or are they 
still put on hold?
    Today for the first time, as you know, information services 
can be delivered to anyone, anywhere on the planet at any time. 
The Internet and the integration of departments, agencies and 
information will truly satisfy this global vision. The E-
government initiatives will promise to fulfill this vision.
    E-government really does not mean just putting a Web front-
end or a portal, but to improve the back-end. It also means 
reevaluating, if necessary, reengineering the back-end so it 
makes sense to deliver value. It also does not mean abandoning 
legacy systems that work, but revising these systems and 
revitalizing them in new ways by inserting new technology.
    It also means instead of continuing to operate in a 
stovepipe mentality, simple mapping of logical and efficient 
overall business processes can lead to the facilitation and 
connection of these functions and have a major deliverable 
result.
    In summary, priorities, commitment and leadership remain 
the most fundamental ingredients to success or failure.
    Thank you, Mr. Chairman. I appreciate being able to 
testify.
    [The prepared statement of Mr. Pomata follows:]

    [GRAPHIC] [TIFF OMITTED] T6681.056
    
    [GRAPHIC] [TIFF OMITTED] T6681.057
    
    [GRAPHIC] [TIFF OMITTED] T6681.058
    
    [GRAPHIC] [TIFF OMITTED] T6681.059
    
    [GRAPHIC] [TIFF OMITTED] T6681.060
    
    Mr. Putnam. We appreciate you being here.
    As is unfortunately too common in this process, we are 
going to have to recess the subcommittee. We will go vote. We 
have two votes, a 15 and a 5, so I presume that we are looking 
at about a 30 minute recess. With that, the committee stands in 
recess.
    [Recess.]
    Mr. Putnam. I reconvene the subcommittee hearing. We have 
completed our votes. We want to thank everyone for their 
patience and understanding. It is a heck of a way to run a 
railroad, but I guess nobody has come up with a better way yet.
    Without objection, all members of the subcommittee will 
have 5 days to submit statements for the record. Objection? 
Seeing none, show it done.
    At this time, I would like to recognize our ranking member, 
Mr. Clay, for 5 minutes of questioning.
    Mr. Clay. Thank you, Mr. Chairman.
    I would like to thank all of the witnesses also for being 
here today, and I would like unanimous consent to enter my full 
opening statement into the record.
    Mr. Putnam. Without objection.
    Mr. Clay. Thank you, sir.
    Let me ask Ms. McGinnis, according to the Department of 
Commerce report published last month, almost half of the 
population still does not use the Internet at all. In addition, 
for minorities and people of lower income, public institutions 
like libraries and community centers are the only source of 
Internet access. This means that the government must operate 
dual systems--one for those who use the Internet and one for 
those who do not. In your testimony, you emphasized the need to 
redesign systems and take full advantage of these new 
processes. How does maintaining dual systems strain the 
intellectual and financial resources of agencies?
    Ms. McGinnis. I am not sure I can answer that question in 
terms of exactly what the cost would be of meeting the goal of 
universal access. The E-Government Act did provide for another 
study of the digital divide. I think that rather than 
continuing to study this, it would make more sense, and perhaps 
could be done in the context of that work, to set a goal of 
universal access, say, within a certain period of time--5 
years, whatever--or just say universal access. And then ask for 
an action plan. What would it take to get us there and how much 
would it cost?
    I think that given what is happening with the technology, 
the cost is likely to be much less than we envision now, 
because there are lots of ways to access the Internet. Working 
through libraries and community centers is one, but we have an 
explosion of wireless devices. This is all happening in a way 
that could lead and should lead to universal access.
    Mr. Clay. Along those same lines, there also exists a 
digital divide between urban and rural communities, not much 
access to the broad band and Internet use in rural communities. 
Would you also include in that study how we access to rural 
residents?
    Ms. McGinnis. Absolutely. As that goes forward, I would 
encourage you, and we certainly will, to pay attention to that 
study and see if it cannot be as practical as possible.
    Mr. Clay. Thank you.
    Ms. McGinnis. Thank you.
    Mr. Clay. Mr. Forman, the electronic government bill passed 
by Congress last year created the Office of Electronic 
Government. On the White House Web site this is identified as 
the Information, Technology and E-Government Office. There is 
also an information policy and technology branch within the 
Office of Information and Regulatory Affairs. How will these 
separate organizations be staffed, and how will you divide 
responsibilities between your office and those of the 
information policy branch within OIRA?
    Mr. Forman. John Graham and I have a very close working 
relationship. The question is one that we are grappling with 
and are working as we work through the organization chart. 
Largely, my work is staffed by that information technology 
policy branch. The person who leads that is a remarkable 
individual, and the members of that team are truly remarkable.
    When we look at the organization, there are a number of 
policy issues. There are a number of technology issues. I have 
as a political deputy Norm Lorentz, our Chief Technology 
Officer. What I will probably do in implementing the E-
Government Act is maintain that breakout between the IT and 
information policy, versus the technology era.
    The only question, therefore, is whether that IT policy 
branch gets re-coined and moved up under me, with a dotted line 
to John, or stays with the dotted line to me, and has a direct 
report to John, and we are working through that.
    Mr. Clay. Let me also ask you, as this Congress considers 
reauthorization of the Paperwork Reduction Act, should we 
clarify the distinct responsibilities of the Office of 
Information Regulatory Affairs and the Office of Electronic 
Government?
    Mr. Forman. There is an element within the Paperwork 
Reduction Act that does need clarification because quite 
frankly this job did not exist when that act was written.
    Mr. Clay. OK, thank you.
    Mr. Putnam. I thank the gentleman.
    I want to begin with a couple of questions for Ms. 
McGinnis. Ms. McGinnis, you mentioned that the E-government Act 
was the first step, certainly not the final step. At this point 
in the game, has enough time elapsed for you to evaluate any 
gaps that may exist in the legislation and opportunities where 
Congress will need to step in, need to correct some glitches, 
or add to?
    Ms. McGinnis. I think the biggest gap at this point is in 
funding. The E-Government Act authorized much more than the 
Congress appropriated for fiscal year 2003. I do think that is 
a gap, because that management fund is the glue money, if you 
will. This is not to say that our investment in IT overall is 
inadequate. I am not sure that it is. The problem is that the 
flexible funding for cross-agency and even intergovernmental 
initiatives is not readily available. So I would say the 
biggest problem at this point is that.
    I do not think that going back to amend or change the E-
government legislation at this point really makes sense. I 
think it is better to do what you are doing in terms of 
overseeing the implementation and working to identify gaps over 
time. But this funding issue I think is significant.
    Mr. Putnam. Does anyone else on the panel have a comment on 
the status of the legislation?
    Mr. Willemssen. I would just add, Mr. Chairman, I would 
concur that to the extent that you can allow some time to pass 
to see what kind of implementation activities occur as a result 
of the legislation. I think you in your oversight role are 
going to be very well-positioned to see how well that act is 
going to be implemented.
    Mr. Putnam. Anyone else?
    Mr. Forman. I would agree.
    Mr. Putnam. Is there a mechanism in place for evaluating 
who is visiting and utilizing these government Web sites--
FirstGov, Regulation.gov--the range of those that we have been 
flashing up on the board. Has an analysis been done of who is 
utilizing that, and conversely then, where the gaps are in 
terms of reaching out and encouraging customers to use this 
technology?
    Mr. Forman. Let me say a couple of things about that. First 
of all, under the Federal Government's policy, we do not use 
cookies or anything like that that lasts beyond the session. So 
for privacy purposes, we do not track who goes to a Federal Web 
site and we would prefer to keep it that way.
    That said, there are a number of organizations that track 
Internet traffic, and they try to see who is coming to, for 
example, FirstGov from Yahoo or Google or one of the other 
search engines. Those are kind of what people call Web 
analytics that we use to improve the quality of the Web sites.
    The third thing that we do is focus groups, so that even 
though we do not necessarily go out and survey people, there 
are obviously some Web sites that do that, most of the big 
initiatives both across agency E-gov initiatives or FirstGov 
and some agency-specific Web sites have focus groups. They will 
present to them new initiatives or new suggestions and test 
them out. Sometimes these focus groups are ongoing and they 
will meet once a month. Sometimes it is just when there is 
something significant.
    Mr. Putnam. Is there a marketing strategy for the Web 
sites? I am struck by how outstanding the Kids.gov Web site 
was. Do we market it to educators? Do we let teachers know 
about it? Do we advertise in Scholastic News or Junior 
Scholastic or some of the ways to reach these educators?
    Mr. Forman. Generally in doing the business case, 
especially when they are citizen-facing Web sites, agencies 
have to not only say, we will get X amount of users, provide 
this value to this group, but they have to identify the 
critical success factors. Oftentimes, that is going to be what 
is generally in industry called a channel partnership. Well, 
government is not used to developing delivery channels. Both in 
working with State and local government or going to rap on the 
Web, so this is a new thing for a lot of organizations. It is 
one of the taskings that we gave to the Office of Citizen 
Services. It underlies a lot of the work at USA Services. But I 
have to say this is a learning exercise still for most of the 
agencies.
    Mr. Putnam. Mr. Willemssen, I understand that GAO sought 
updated E-government business cases that are being prepared for 
the fiscal year 2004 budget, and that OMB agreed to provide 
that information after the release of the President's budget. 
Have you received that yet?
    Mr. Willemssen. Not yet. We met with OMB officials on 
Monday, and they indicated that they wanted to review those 
business cases before providing them. They said they would try 
to do that quickly. A specific deadline was not provided, but I 
anticipate that we will be able to get them fairly soon.
    Mr. Putnam. Mr. Forman.
    Mr. Forman. There is certain data in the business cases 
that we require which are a little unique to the government--
things like the acquisition strategy. In some initiatives, that 
is procurement-sensitive information or it is protected under 
other laws. So that is generally what is being extracted. From 
our perspective, we told the agencies, the departments, it is 
your job to figure out what is not appropriate to send, but to 
communicate the business cases. There are certain things that 
of course have to be communicated.
    Most of the information that GAO highlighted in their 
report has nothing to do with anything that is proprietary or 
should be prohibited--things like performance goals, 
performance measures, cost and schedule estimates and so forth. 
So those should be forthcoming. If there is a hold up, I need 
to be held accountable. I will track that down.
    Mr. Putnam. We will.
    Let's get into some of the numbers. Which of the 24 
initiatives would you classify as being complete or nearly 
complete, versus those in progress, versus those that are 
stagnant or behind schedule? Let's start with Mr. Forman.
    Mr. Forman. OK. I would first preference with the notion 
that we started out after the E-government task force, and 
having at that point 23 and then we added in E-payrolls, the 
24th. Then we went to the managing partner and told them it was 
their job to meet with their partners and put together a 
business case. Here were the criteria for the business case. 
The thing that we added in, versus the standard agency business 
case, was a requirement to look at the value proposition for 
the citizen that was being created. What we got back was pretty 
bad.
    So we had what we call partnership meetings with the 
managing partner and the partners. We adopted an iterative 
approach. The first iteration was to get up a Web site or a Web 
tool that showed that as a team, they could do something that 
would help citizens, and it was a visible mark that as a team 
they could do something successful.
    The second iteration was to get involved in the 
reengineering. Sometimes it was identify standards. Most of 
that will not show up at a Web site. The third iteration was 
actually deployment, and the migration to that reengineered, 
simplified or consolidated solution.
    So what is actually there? What is close to that third 
iteration? There are a few that actually are ahead of schedule. 
For all practical purposes, you can say they are done, but they 
have such energy now as a team. Those would be, I would say, 
the recreation one-stop and the free file.
    Mr. Putnam. What was the second one you said?
    Mr. Forman. Recreation one-stop and the IRS free file.
    Some have made it through the reengineering or they are 
heavy-duty into the reengineering. They are grappling with, how 
do we successfully define a migration plan? But they have not 
done that. we will know they are done per se when we have 
migrated off of the siloed agency approach and we have come 
together around citizen needs.
    Some of the ones that I think are on a decent path right 
now would be, for example, the E-grants project. E-grants has 
had some early--they promulgated the regulation, and like all 
good government entities, when we have a reengineered business 
process, it is not real until it goes out for comment as a 
regulation, so that is done. But there are probably 9 to 12 
months away from deploying that reengineered process. E-
payroll--the payroll consolidation effort--has pretty much got 
an agreement and they have locked into a path for 
consolidation. Today, they released an RFP for technology. So 
they are not only ahead of the game, but they are accelerating 
continually. It is that kind of snowballing effect that I am 
looking at. I think those are some of the ones that I would put 
in there. I think disaster management is back on track.
    Which are the ones that I would say are not firing on all 
of the burners that we would like to see them fire? The online 
access for the loans, or the E-loans project, took a step back 
to really flesh out a business case that was going to be 
viable. So they are behind, but they have one of the higher 
quality business cases right now, I would say.
    The international trade process streamlining, where they 
have the Web site out there. In fact, they have their tool out 
there, and you were flashing it up. I have trouble finding that 
tool. I know it is there just because I know it is there. It is 
not the quality that we would like to see. Moreover, it does 
not have the process streamlining that we would like to see. 
The business compliance one-stop has some pretty neat things 
there, but that, too, does not have the quality program 
management plan that we are looking for to get into that next 
reengineering.
    So there are a number of these projects that we have had to 
take some action, as Mr. Willemssen mentioned--restructure the 
program, restructure the program office. I think those are 
known and highlighted.
    Mr. Putnam. Mr. Willemssen, do you have anything to add?
    Mr. Willemssen. Yes, we have also identified several 
success stories. I think they map to some degree to what Mr. 
Forman said. A lot of these ones that have benefits are of an 
informational nature, where they are providing information to 
the citizens more quickly, more easily, and in a much more 
accessible format. GovBenefits.gov I think is one. E-training 
has gotten a lot of participation; also recreation one-stop, 
which I think also Mr. Forman talked about.
    Now, we should recognize that these informational-type 
projects are easier to accomplish. You are putting the 
information on the site and people are finding out everything 
they need to know in one location. So it is not surprising that 
maybe some of that low-hanging fruit we are able to capture 
more quickly.
    When you start talking about transactional or 
transformational projects, they are going to take a little 
longer. That is going to be a little more difficult. Any kind 
of transactional project, we are going to obviously have to 
talk about security and privacy. For transformation, we will 
have to discuss the kind of issues that Ranking Member Clay 
talked about before. You cannot just shut down offices and not 
provide people with that kind of access, because they may not 
have Internet access.
    So I think there are still some challenges there. I give 
credit to Mr. Forman for laying out an ambitious goal of saying 
we are going to try to do these in 18 to 24 months. But in some 
of these projects, they are probably not going to be able to 
get 18 or 24 months. An example would be safe.com, which is 
interoperable wireless transmissions among our public safety 
officials. That is going to be very difficult to achieve. The 
current timeline I believe they are looking to do a concept of 
operations for interoperability later this year. That is just 
the concept of operations.
    So some of these projects are going to take a little 
longer. It is understandable because they are much more than 
just supplying information.
    Mr. Putnam. Any other comments on that?
    Ms. McGinnis. I think it might be useful to at this point, 
with the experience, to map out sort of a schedule that some of 
these would be on a faster track than others, so you could see 
what to expect. The most important column in their chart to 
look at all the initiatives is the next steps. Even in 
GovBenefits, which I think is one of the very best, they have 
not really achieved the result that they set out to achieve. 
They have got eligibility information about 200 Federal 
programs online so that people can find out what they are 
likely to be eligible for, but the goal is to both include 
intergovernmental programs, State and local, and also to allow 
people to actually apply online. So just getting a better sense 
of what that schedule might look like with this much experience 
I think would be helpful to you.
    Mr. Putnam. Mr. Pomata.
    Mr. Pomata. I guess I would agree with that. I also agree 
that all of these projects are not equal in terms of what the 
payoff may be or the time to do it. Some of the larger projects 
might even be the ones that are internal savings and 
efficiencies--things like E-payroll, E-travel. Those are 
probably greater payoffs in terms of, and I have not seen 
specifically a business case, quite honestly--but in terms of 
return on investment, in terms of reduced cost and higher 
efficiency, internal to the government to provide service. But 
there are probably larger projects and longer-term and a little 
bit more complicated that need to be looked at on that basis, 
but they do have a payoff. The citizen-facing ones might be a 
little easier, but they are not all low-hanging fruit either, 
so there is some difficulty there. But I think we need to look 
at them as not all being equal in the context of how to get 
these things done.
    Mr. Putnam. Thank you.
    Mr. Clay.
    Mr. Clay. Thank you, Mr. Chairman.
    Mr. Willemssen, in your testimony you have listed 
performance measures for the Quicksilver project that is taken 
from the President's budget. Can you give us an evaluation of 
the quality of those measures? For example, many of the 
projects use an increase in the number of Web site hits as a 
measure. Is that a good measure of how well a Web site is 
reaching its target audience, or should we also be looking at 
the duration of those hits?
    Mr. Willemssen. I think ideally you would want to initially 
also establish a baseline of where the particular initiative is 
at for hits, and then what kind of progress you want to make 
over time. Then, as you mention, try to become a little more 
outcome-oriented rather than just output oriented. To the 
extent that there can be information garnered about the quality 
of the interaction that the citizen had with the site, rather 
than just ``I hit the site.''
    Now, one method for doing that Mr. Forman touched on was 
the concept of focus groups. That can be a useful guide. But to 
the extent that there is a performance measure that is not only 
just quantitative, but you can get some outcome and quality 
measures in there too, I think that would be even more ideal.
    Mr. Clay. Although if constituents are not satisfied, we 
will hear from them, too, won't we.
    Let me ask you another question. In some of the work GAO 
did for the Government Efficiency Subcommittee last year, we 
discovered that corrections to Social Security records did not 
always get made to all relevant systems. For example, an 
investigation of persons receiving benefits from a veterans 
hospital turned up a number of active recipients who were 
listed as deceased on the Social Security death index. 
Subsequent investigation showed that the death index was 
incorrect and that the errors had been corrected in other 
Social Security systems, like the benefits file. Will the E-
vital performance measure of number of verified death records 
address this kind of cross-system problem?
    Mr. Willemssen. It can to the extent that the underlying 
systems and data base structures are addressed. As Mr. Forman 
pointed out, one of the objectives here is to try to enter data 
once, and then re-use it, rather than entering data multiple 
times, because in doing that you then increase the potential 
for just the kind of issue that you talked about. So to the 
extent that we can have a more unified data base structure and 
a unified set of systems and a defined set of users, you will I 
think get a much better handle at addressing those kind of 
issues that came up previously.
    Mr. Clay. I think Mr. Forman mentioned travel. One of the 
Quicksilver projects deals with government travel. In the last 
Congress, GAO documented serious abuse of government travel 
cards for this committee. I do not, however, see anything in 
the performance measures for this project that would address 
those abuses. Is addressing those abuses missing from this 
project?
    Mr. Willemssen. The information I have on that work that we 
have done, is that it has been focused on particular agencies 
and the need for enhanced oversight and controls with their 
existing systems. As OMB moves forward with this project, they 
are going to have to incorporate appropriate controls within 
it. I do not know at this point the specific details on the 
controls planned within that particular initiative.
    Mr. Clay. Perhaps Mr. Forman, could you address it?
    Mr. Forman. Yes. Obviously, as I mentioned, things are 
iterative here, but clearly one of the things that the E-travel 
project has to look at and is looking at for future iteration 
is this concept of some people would call it credit card-less 
travel. We have contracts for airlines, contracts for cars, and 
it is not that hard to imagine to a scenario of contracts for 
the hotel. At that point, you are left with just per diem. So 
there are a number of ways that we see some of the largest 
companies deal with that. They do not literally give a credit 
card to a person. The credit card is used for making that 
electronic payment and doing the booking, but then you do not 
have people doing nefarious things with the credit card.
    So there are quite a few restrictions. That is clearly one 
of the things that fits within the guidance for agencies to 
look at. So we have asked for the E-travel project management 
office to look at that as they look at the next iteration of 
alternatives.
    Mr. Clay. OK.
    Thank you, Mr. Chairman.
    Mr. Putnam. Don't stop now. You are on a roll. [Laughter.]
    I want to continue with the line we were on before. In 
implementing Clinger-Cohen, agencies focused on the development 
of enterprise technology architectures, which mapped the 
agency's current IT architecture to a target IT architecture. 
The E-Government Act defines EA's as modernization blueprints 
for agency information technology. If you would, please 
describe how OMB is helping agencies change those enterprise 
architectures to support the new modern blueprint approach.
    Mr. Forman. I think maybe the best example of this that I 
saw when I first came in is we had the Treasury Department 
brief us--I was maybe on the job for about 8 weeks--on their 
enterprise architecture. It was a tremendous set of charts of 
boxes, wiring diagrams and so forth. But I guess I kind of 
think of the Treasury Department's role real simply--accounts 
payables and accounts receivables. So given how much they spend 
on IT, I asked, where can you show me how we are going to 
improve accounts receivables or accounts payables? Accounts 
payables obviously reduce error rates. Accounts receivable--we 
ought to be able to account for everything that we are 
collecting, and we do not have that accounting yet. They could 
not tell me. They flat-out could not tell me how all the 
technology was helping with accounts receivables or accounts 
payables.
    So we are having these discussions now as a result of the 
E-Government Act and the scorecard with each of the CIOs to 
focus on every department's two or three chronic management 
issues, that relates not so much to what computers I am buying, 
but why am I buying these computers. The modernization 
blueprint, as a minimum, every department, every CIO, every 
deputy secretary ought to be able to say, I am making this big 
of an investment in IT to fix these two or three major 
problems. And then the folks on the technology side working 
with the folks on the operations side ought to be able to line 
up and negotiate out those distinguishing investments.
    As GAO highlights, that should show up. They should have a 
management council, so you know they literally did get the IT 
folks and the operational folks together, and they adjudicated 
that discussion. Those are the types of things that we are 
starting to see--the management frameworks, the documentation, 
the business cases that back that up. That is what I would be 
looking for.
    Mr. Putnam. In creating that scorecard, how do you get 
accurate information to sufficiently monitor those 24 
initiatives?
    Mr. Forman. Each week, we have portfolio managers that work 
with each of the projects, and we update status against 
schedule milestones. We put at a high level the key migration 
milestones in the budget this year so that those would be more 
public, in large part because this was something that was 
highlighted by GAO, but also to get people to focus now that we 
are fairly far along in these initiatives, that we have got a 
joint solution. It is a joint solution, and we are going to 
have to shut off siloed agency approaches and move to the joint 
solution.
    So I am looking for two things. I am looking first of all 
for that E-gov initiative to clearly refine and make progress 
on their solution, to get to those milestones. And then as we 
look at the partner agencies, we are checking the business 
cases. Literally, we get the business cases and align those or 
overlay those against these initiatives to make sure that we 
are not investing in redundant efforts. That is the fastest way 
that we will be piecemealed is if we allow the agencies to 
develop competing efforts. So it is a two-part approach--
working with the teams to make sure we stay on progress, 
overseeing the agencies to make sure they are not off the 
reservation.
    Mr. Putnam. In bringing these together, you have 
technological obstacles, logistical hurdles, and then you have 
the people factor, the cultural hurdles. How well is the 
culture changing in the Federal Government to make these 
initiatives work and be successful in the timelines that you 
have established?
    Mr. Forman. Gee, I could use some performance measures for 
culture. [Laughter.]
    I will tell you, early last summer I took a look at all the 
efforts resisting change, and I really think we passed a 
milestone or we turned a corner last summer. I am not sure why. 
Maybe somebody tried to get me fired and they were not 
successful or something. I do not know what the benchmark is. 
But I could literally place against the textbook, and the 
textbook I use for this is called Evolve--it was Beth Moss 
Kanter's, a professor at Harvard Business School. I could look 
at who was doing what activity to resist change, and it was 
textbook. So I have applied a lot of the textbook techniques to 
deal with that resistance to change.
    Some key lessons learned here, and I think the witnesses 
have highlighted many of them. First of all, engaging the 
President's Management Council via an E-government committee 
was extremely important to us. It worked two ways. One, they 
became the focal point for a lot of the issues and the high 
level of resistance to change, and we could negotiate that out. 
By the same token, they laid out some things that they wanted 
OMB to do in adjudication as we went through the 2004 budget 
process that would overcome the resistance to change. So by 
them saying, for example, just as GAO had said, you have to 
have a financing strategy and the table that lays out all of 
the puts and takes by agency, what to expect their contribution 
to be in 2003 and 2004 to these E-government initiatives. They 
had resisted the financing strategy, but once we laid it out, 
they said that agencies would comport to that. So those were 
the types of things that we did.
    Mr. Putnam. Mr. Willemssen do you want to add anything to 
these?
    Mr. Willemssen. To echo that the organizational, cultural 
and bureaucratic hurdles that OMB faces in implementing these 
initiatives should not be underestimated. Every agency ideally 
likes to have their own system, because they often like to say, 
well, you do not understand, we have unique needs that only 
this particular customized system can meet. We hear that all 
the time. The truth of the matter is, that is not necessarily 
the case. In some instances, it is. In many, it is not. That is 
why Mr. Forman and OMB, will be running into a challenge. This 
is tough work to try to get supporting partners to say, OK, we 
are going to buy in; we will be a supporting partner, and we 
will use what the lead comes up with, instead of going ahead 
with our own stovepipe approach and developing our own system 
for our own parochial needs.
    Again, in some cases those are justified. In many cases, I 
do not think they are, and that is the biggest hurdle. I do not 
think the biggest hurdle is technological. I think it is more 
management and organizational, and to overcome that hurdle at 
the agencies, you need top executive commitment behind where 
the executive branch wants to go with these initiatives.
    Mr. Putnam. Does that exist?
    Mr. Willemssen. In selected cases, it does. I think it is, 
as Mark pointed out, it is improving. But the key as to whether 
it is really happening or not is what we see as the year moves 
on as to whether these agencies are going to continue to get 
funded for their individual projects and systems, which one 
logical person may be able to say, why aren't you using this 
other governmentwide approach.
    Mr. Putnam. Mr. Pomata, what is your private sector take on 
our cultural challenges?
    Mr. Pomata. I think the commonality is that the private 
sector has cultural challenges, too, as well, when change is 
involved. I think the common goal approach is important. We 
institute that in any change process, and that is there needs 
to be a leader identified. Everybody has to know who the leader 
is, and the goal has to be common, and it needs to be something 
in the organizational as well as the individual level to see a 
line of sight where they can affect the process. Sometimes that 
gets lost, certainly down an organization. So individuals, the 
management team, the individual contributors--we try to have a 
situation where everybody can see their piece of making success 
of the common goals. That seems to work, and I think it works 
in industry, and I have been working with the government for 35 
years of my life, so I see it from both sides, so to speak, and 
I think that is something that can be successful as well.
    One other comment on a process and uniqueness. I think that 
happens in industry as well. When we go into an organization as 
an implementer, we use a cots package. Every organization says 
we look different, we need to make some changes. I think 
industry has figured out that changing the process is easier 
and less costly than modifying, customizing and making 
something unique. I understand the government has constraints 
that government does not necessarily have in terms of laws and 
things, but I think that needs to be looked at. I think to some 
extent it already is.
    Mr. Putnam. Along those lines, a lot of work has gone into 
determining best practices. In review of those, do you note any 
major differences in best practices between the public sector 
and the private sector?
    Mr. Pomata. I think over the last few years with the 
Clinger-Cohen Act and a number things that have happened, I 
think that they have begun to converge. I think the government 
has adopted the best practices that they found in industry, and 
I think there is a cross-pollination, if you will, in looking 
outside of government for practices that need to be used, and 
for the most part and to a great extent, I think that they have 
been adopted and are willing to adopt them. That was the other 
cultural issue I think we have had for a long time, is the 
adoption of best practices that were not invented here. I think 
we have gotten for the most part over that.
    Mr. Putnam. Let me try to bring this in for a landing. I 
appreciate everyone's indulgence. On a scale of 1 to 10, with 
10 being the highest or the best, where are we today in the 
evolution of the E-government concept? We will start with you, 
Mr. Pomata. I feel like we have left you out.
    Mr. Pomata. You have put me on the hook immediately.
    It depends. I say that not tongue in cheek. Overall, I 
guess I would rate it in terms of expectations, and this is not 
to diminish expectations, I would rate it in the nine category 
in the context of these are major initiatives. They are 
cultural changes we have talked about. There are some budget 
issues. There are a lot of things that have to be done to move 
this ball forward. I think all of us, and certainly speaking 
for myself, would like to see things further along, but given 
the magnitude of the problems, the magnitude of the kind of 
initiatives that we have in place, I think there has been 
significant progress made and significant things accomplished. 
Hopefully, the next--to get from 9 to 10--does not take 10 
more, as we sometimes find in doing things, in terms of 
completing projects. I do not think that is the case. So I 
think we are well along and it is being well managed. Things 
need to be improved, as they always are.
    Mr. Putnam. Ms. McGinnis.
    Ms. McGinnis. I would probably go to the other end of the 
spectrum, because I think we are just beginning here. So I 
would probably give it a two or a three. But let me say that 
when we ask the public to evaluate their experiences online 
with government, they give very high marks. But I do not think 
their expectations are as high as the potential, and that is 
why my marks would be lower.
    Mr. Willemssen. I would assess it in two ways--one, 
direction, focus; and second, implementation. From my 
perspective, direction and focus, I rate it very highly. The IT 
investments chapter, for example, out of the President's 2004 
budget I thought was a dramatic improvement, and hit all the 
right issues. I think within the 24 initiatives there are a lot 
of good projects that offer a lot of potential, and I think 
more can be done. I think it is refreshing to hear that OMB is 
willing to challenge the existing model and willing to say, no, 
you cannot have that, to certain agencies. So I think overall 
direction and focus I would rate highly.
    Implementation I would have to rate as incomplete. I will 
be in a better position to give you a rating on that once I see 
updated information from OMB on where those 24 initiatives are 
in focus on customers, collaboration strategies, funding 
strategies, and whether individual agencies are going to 
continue to go forward with their stovepipe projects.
    Mr. Forman. In keeping with the tenets of the management 
scorecard, I would probably give us a rating on status and a 
rating on progress. I would probably give us a yellow on 
status. We have made a lot of progress. There are measurable 
results. But I would probably give us a green on progress 
because the plans are clear, they are all known. There is 
nothing being hidden I think from anybody in the agencies, 
certainly. We were extremely articulate in the pass-back, the 
guidance back to the agencies on what they were going to get 
and what they were not going to get, and the fact that this is 
a team-based initiative and they have to play with that. That 
is why they either were or were not going to get funded for 
certain things. We have the tools in place, the guidance is out 
there in OMB A-11, and fairly far along on the EGO-VAC 
implementation.
    However, how a yellow and green translate into a 1 to 10, I 
am not sure.
    Mr. Putnam. I am not going to let you off that easy. I 
guess yellow is a five. Is that in the middle?
    Mr. Forman. Yes, I think that is fair.
    Mr. Putnam. What does that make a green--a 10?
    Mr. Forman. I would probably give us a 9 or 10 on progress. 
I think what we are looking for on progress is that we are 
covering all the right areas, and we have solid plans and 
evidence that we are making that progress. I think that is 
there.
    Mr. Putnam. What can the taxpayers, the customers hope to 
accomplish in terms of savings derived from the efficiencies of 
a fully implemented E-government strategy in 5 years or a 
decade? Is there a ballpark way of quantifying that, to anyone?
    Mr. Forman. I think that savings is just one aspect. I 
think productivity is the real key. The question, if you were 
to take a look at the discretionary budget or discretionary 
budget plus some element of the mandatories, and say what 
portion do we devote to overhead and management, I would 
probably apply commercial benchmarks to that, and say either 
how much could we do at the current level in terms of the 
productivity, the results of those programs, or could we do the 
same level of performance as we are doing today at an order of 
magnitude less cost in certain areas.
    The reason that we maintain this has to be looked at from 
the management perspective. There are some real pressures over 
the timeframe that you are looking at. I would say that 
probably the most constraining issue that is going to drive us 
to really get a lot of E-government is the human capital issue. 
There simply are not going to be enough government workers in 
the Federal Government 5 or 6 years from now to do business as 
usual.
    Mr. Putnam. Anyone else?
    Ms. McGinnis. I was going to say, rather than giving an 
overall figure, I think the only way you can think about this 
now is to take specific examples. If you look at, for example, 
the difference in cost between even a toll-free telephone call 
from Social Security and an online interaction, the multiples 
are enormous. The potential for savings here, I think, is 
absolutely enormous. It will not all mean less money. It may 
mean the ability to actually invest in more services, better 
quality services, the kind of work force that you are talking 
about. But the potential is extraordinary.
    Mr. Willemssen. I would just echo that. I think it is hard 
to give a ballpark figure, but if you look at some of the 
detail behind the individual initiatives, I think you can come 
up with some good data. One example I would offer is E-payroll. 
I would expect there is going to be tremendous savings from 
going from 22 different processing centers to 2. In looking at 
the OMB-reported performance metric on that, I think they are 
focusing on the right thing--payroll cost per transaction per 
employee. That is a good measure to see what kind of 
improvement is going to happen when you go from 22 to 2. The 
goal is I think to have that done by September of next year. 
That is an optimistic goal, but to the extent they can do it, 
they should get all the credit in the world for it.
    Mr. Putnam. Mr. Pomata. Mr. Clay.
    I want to thank our distinguished panel for their insight 
and for their patience. I want to thank Mr. Clay. I look 
forward to a number of other productive meetings on this topic. 
As you know, this is just the first of many that we will hold 
on maintaining our focus on E-government. I really see one of 
the key missions of the subcommittee being to give good 
oversight and ensure that the Federal Government is taking 
advantage of every technology out there to increase efficiency 
and improve customer service and transform that relationship 
between the customer and the government.
    Today's hearing certainly made clear we have a lot of work 
to do, but that we are also on the right track, and have come a 
long way.
    I thank everyone for their hard work, and with that, the 
meeting stands adjourned.
    [Whereupon, at 3:51 p.m., the subcommittee was adjourned, 
to reconvene at the call of the Chair.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T6681.061

[GRAPHIC] [TIFF OMITTED] T6681.062

[GRAPHIC] [TIFF OMITTED] T6681.063

[GRAPHIC] [TIFF OMITTED] T6681.064

[GRAPHIC] [TIFF OMITTED] T6681.065

[GRAPHIC] [TIFF OMITTED] T6681.066

[GRAPHIC] [TIFF OMITTED] T6681.067

[GRAPHIC] [TIFF OMITTED] T6681.068

[GRAPHIC] [TIFF OMITTED] T6681.069

[GRAPHIC] [TIFF OMITTED] T6681.070

[GRAPHIC] [TIFF OMITTED] T6681.071

[GRAPHIC] [TIFF OMITTED] T6681.072

[GRAPHIC] [TIFF OMITTED] T6681.073

[GRAPHIC] [TIFF OMITTED] T6681.074

[GRAPHIC] [TIFF OMITTED] T6681.075

[GRAPHIC] [TIFF OMITTED] T6681.076


</pre></body></html>
